FOR IMMEDIATE RELEASE                                              January 23, 2014
Media Contact: 202-565-3908

   FLORIDA BUSINESS OWNER SENTENCED FOR HIS ROLE IN DEFRAUDING
          THE EXPORT-IMPORT BANK OF THE UNITED STATES

Washington, DC – The Office of Inspector General (OIG) for the Export-Import Bank
of the United States (Ex-Im Bank) announced today that Winterhaven, Florida
businessman Emilio A. Michel, 55, was sentenced to one year and one day
incarceration on January 23, 2014. In addition, Michel was ordered to pay $355,652
in restitution, $680,449 in criminal forfeiture, and serve 36 months of supervised
release. The Honorable U.S. District Judge Ursula Ungaro, Southern District of
Florida, Miami Division, sentenced Michel for his role in defrauding Ex-Im Bank.
Michel had previously pled guilty on November 8, 2013 to criminal charges of two
counts of conspiracy to commit wire fraud and wire fraud.

According to court records, Michel, a naturalized U.S. citizen born in Cuba, owned a
small boat manufacturing business in Winterhaven known as Sea Star Boat
Corporation (Sea Star) that ostensibly sold and exported small boats to buyers in
foreign countries. In January 2009, Ex-Im Bank approved an insurance policy for
Michel and Sea Star to cover the risk of non-payment by foreign buyers of U.S.-
manufactured boats. Under an “Enhanced Assignment of Policy Proceeds”, Michel
and Sea Star then assigned the proceeds of the insurance policies to a lending bank
in Miami to obtain financing for the purchase and export of these goods. Under an
enhanced assignment of the insurance proceeds, Ex-Im Bank agrees to pay claims to
the assignee. Therefore, the insurance policies covered the lender in the event of a
default related to the loan payments by Michel and Sea Star.

According to court records, Michel entered into a conspiracy with others to defraud
Ex-Im Bank and unlawfully enrich themselves by submitting false and fraudulent
information to Ex-Im Bank through the lender to obtain money from the loan and
misappropriate the loan proceeds for their own use and benefit. According to court
records, Michel admitted that he and others prepared and caused to be prepared
false loan applications, false financial statements, false shipping documents, and
false invoices representing that Michel, through Sea Star, had sold and shipped
approximately $680,449 worth of goods manufactured in the United States to
foreign buyers. In fact, according to court records, Michel had not sold or shipped
any of the goods. Michel defaulted on his loan causing Ex-Im Bank to pay a claim to
the lender on March 17, 2011 in the amount of $355,652.




                  811 Vermont Avenue, NW Washington, D.C. 20571
The U.S. Department of Justice Criminal Division Fraud Section and the U.S.
Attorney’s Office, Southern District of Florida prosecuted the case. The case was
investigated by Ex-Im Bank OIG.

Ex-Im Bank is an independent executive agency that helps create and maintain U.S.
jobs by filling gaps in private export financing at no cost to American taxpayers. Ex-
Im Bank provides a variety of financing mechanisms, including working capital
guarantees, export credit insurance and other financing to help foreign buyers
purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations.

Additional information about the OIG can be found at www.exim.gov/oig.
Complaints and reports of waste, fraud, and abuse related to Ex-Im Bank programs
and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946)
or via email at IGhotline@exim.gov.




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
